                                                    OFFICE OF INSPECTOR GENERAL

                                                                             MEMORANDUM




DATE:           June 13, 2001

TO:             Chairman

FROM:           Inspector General

SUBJECT:        Report on Audit of Web Presence Security

The Office of Inspector General (OIG) has completed an Audit of Web Presence Security. A copy of
our Audit Report, entitled “Audit of Web Presence Security” (Audit Report No. 00-AUD-01-10), is
attached for your review and comment. The objective of this audit was to measure how successful the
Commission has been in securing its web portals. Because the use of the Internet for commerce
presents new and unique security challenges, we developed a set of specific information security related
objectives for this audit. Specific objectives were to:

    •   Determine if any conditions exist that could allow external user or hacker to penetrate web
        server security and cause possible harm to Commission assets;
    •   Ensure that the FCC is not vulnerable to known Web-based security attacks; and
    •   Identify vulnerabilities in the general controls over web-based assets.

To accomplish the objectives of this audit, we contracted with the computer security firm of TWM
Associates, Inc. (TWM) to perform the audit. Under our supervision, TWM developed an audit plan
that was designed to measure the extent that the Commission’s web presence infrastructure fulfilled the
above mentioned security goals. This audit included an assessment of the current security posture of
those Commission-wide systems providing information via the Web and the use of audit tests and
techniques designed to identify vulnerabilities in web presence security. We interviewed FCC personnel
responsible for Internet and web security, including the Computer Security Office (CSO), Information
Technology Center (ITC) and Auctions systems personnel, and Bureau and Office personnel
responsible for application development. We also reviewed FCC system documentation. In addition,
we performed a number of tests to determine the level of security of the FCC’s web presence. For
example, to determine what Internet system services the FCC web hosts offered, TWM examined the
ITC and Auctions systems using a network scanning tool and used a proprietary program to perform
sophisticated analyses of the FCC’s Unix and Windows NT web presence hosts. Finally, we used
system penetration techniques to test the security of the Commission’s web-based applications.
During our audit, we found that the Commission has implemented numerous computer security controls
designed to protect and preserve its web-based assets. However, during the audit, we identified thirty-
eight findings (38) that impact the effectiveness of the Commission’s program. Six (6) of the audit
findings were determined to be high-risk1, thirty-one (31) were determined to be medium risk, and one
(1) was determined to be low risk. Findings occurred in the areas of host and network access, system
software, service continuity, and application software development controls. We recommend that the
problems we identified be corrected to strengthen the security of the Commission’s web presence. Our
recommendations, when implemented, will correct present problems and minimize the risk that future
security problems will occur in the FCC’s Internet web presence. All recommendations contained in
the attached report will be tracked for reporting purposes by the OIG.

On March 28, 2001, we issued a draft report summarizing the results of our audit. In that draft report,
we requested that the Wireless Telecommunications Bureau (WTB) and the Information Technology
Center (ITC) respond to the findings and recommendations presented in our report. Each organization
prepared a response addressing those findings and recommendations relevant to their portion of the
Information Technology infrastructure. ITC provided comments on thirty-one (31) of the thirty-eight
(38) findings contained in the draft report and WTB provided responses to twenty (20) findings.

In their response, ITC indicated concurrence with twenty-eight (28) of the thirty-one (31) findings for
which they provided a response and indicated that they did not concur with three (3) findings. For one
(1) of the findings with which ITC did not concur, we examined the response, agreed with ITC’s
explanation and closed the finding. For two (2) of the findings where ITC indicated that they did not
concur, ITC explains that the finding has been addressed by events that took place after fieldwork was
completed on the audit. For each of these findings, we state in our comments that ITC should
demonstrate this solution as part of the audit follow-up process to close this finding. We have included
a copy of the response from ITC in its entirety as Appendix D to this report. Where ITC disagreed
with our conclusions, we have added a section titled “OIG Comments,” to explain our position.

In their response, WTB indicated concurrence with each of the recommendations for the twenty (20)
findings that applied to the bureau. Of these twenty (20) findings, WTB reported that fifteen (15) were
closed as of May 7, 2001. We have included a copy of the response from WTB in its entirety as
Appendix C to this report.




1       Each audit finding was evaluated to determine its degree of exposure based on the following risk ratings.
        High: Security risk can cause a business disruption, if exploited. Medium: Security risk in conjunction with
        other events can cause a business disruption, if exploited. Low: Security risk may cause operational
        annoyances, if exploited.
                       Audit of Web Presence Security



                              Table of Contents


                                                                   Page


EXECUTIVE SUMMARY                                                    1


AUDIT OBJECTIVE                                                      3


AUDIT SCOPE                                                          3


AUDIT APPROACH                                                       4


BACKGROUND                                                           6


OBSERVATIONS                                                         8


RESPONSE                                                             8


APPENDIX A        FCC Web Presence Architecture                      A-1


APPENDIX B        Detailed Findings and Recommendations              B-1


APPENDIX C        Report on Web Presence Security – WTB Response     C-1


APPENDIX D        Report on Web Presence Security – ITC Response     D-1




                                      1
EXECUTIVE SUMMARY

The Federal Communications Commission (FCC) is increasingly using the Internet to
conduct business and to disseminate information. For example, the Commission
currently maintains several internet-based electronic filing (e-filing) systems that allow
the public to submit and/or review the different types of filings related to FCC
proceedings, rulemakings, tariffs, and official forms. To maintain those systems that
allow the public to submit and/or filings via the Internet, the FCC has developed an
infrastructure that we have called the web presence. The web presence includes all
hardware, software, and network services that comprise the Commission’s Internet entry
and egress points. We liken the Web Presence to the FCC’s doors and windows on the
Internet.

Just as a prudent businessperson would check the security of the office doors and
windows, we developed the scope of this audit to assess the current security posture of
the FCC’s web presence. Again, like the businessperson, we focused much of our efforts
on the external threat. Because the use of the Internet for commerce presents new and
unique security challenges, we developed a set of specific information security related
objectives for this audit. They include:

   • Determine if any conditions exist that could allow external user or hacker to
     penetrate web server security and cause possible harm to Commission assets.
   • Ensure that the FCC is not vulnerable to known Web-based security attacks.
   • Identify vulnerabilities in the general controls over web-based assets.

To gauge the extent that the FCC met these goals, we contracted with TWM Associates,
Inc. (TWM) to conduct an audit of web presence security. Under our guidance and
supervision, TWM developed an audit workplan designed to measure the extent that the
Commission’s web presence infrastructure fulfilled the above mentioned security goals.
This audit workplan served as the basis for the audit TWM conducted on the web
presence. This audit included an assessment of the current security posture of those
Commission-wide systems providing information via the Web and the use of audit tests
and techniques designed to identify vulnerabilities in web presence security.

During our audit, we found that the Commission has implemented numerous computer
security controls designed to protect and preserve its web-based assets. However, during
the audit, we identified thirty-eight findings (38) that impact the effectiveness of the
Commission’s program. These findings occurred in the areas of host and network access,
system software, service continuity, and application software development controls. We
recommend that the problems we identified be corrected to strengthen the security of the
Commission’s web presence. Our recommendations will correct present problems and
minimize the risk that future security problems will occur in the FCC’s Internet web
presence.

The two entities primarily responsible for the security of the FCC’s Web Presence, the
Wireless Telecommunications Bureau (WTB) and the Information Technology Center



                                             2
(ITC), prepared separate responses to the draft report and its thirty-eight (38) findings. In
the WTB response, the Chief, WTB, concurred with the with the recommendations for
the twenty (20) findings that applied to the bureau. Of these twenty (20) findings, WTB
reported that fifteen (15) were closed as of May 7, 2001. We have included a copy of the
response from WTB in its entirety as Appendix C to this report.

In the ITC response to the draft report, the Chief Information Officer (CIO) concurred
with or concurred with comments to twenty-eight (28) of the thirty-one (31) findings that
applied to ITC. The ITC disagreed with the recommendations of three (3) findings.
Also, ITC requested that we reclassify the severity of a third finding, while concurring
with its recommendation. In response, we have added our comments to the end of these
four (4) findings. We have included a copy of the response from ITC in its entirety as
Appendix D to this report. Where ITC disagreed with our conclusions, we have added a
section titled “OIG Comments,” to explain our position.




                                              3
AUDIT OBJECTIVE

The objective of this audit was to measure how successful the Commission has been in
securing its web portals. Because the use of the Internet for commerce presents new and
unique security challenges, we developed a set of specific information security related
objectives for this audit. Specific objectives were to:

   • Determine if any conditions exist that could allow external user or hacker to
     penetrate web server security and cause possible harm to Commission assets.
   • Ensure that the FCC is not vulnerable to known Web-based security attacks.
   • Identify vulnerabilities in the general controls over web-based assets.

To gauge the extent that the FCC met these goals, we contracted with TWM to perform
the audit on the web presence. Under our supervision, TWM developed an audit
workplan that was designed to measure the extent that the Commission’s web presence
infrastructure fulfilled the above mentioned security goals. This audit workplan served as
the basis for the audit TWM conducted on the web presence. This audit included an
assessment of the current security posture of those Commission-wide systems providing
information via the Web and the use of audit tests and techniques designed to identify
vulnerabilities in web presence security.

We employed the following audit techniques to accomplish this objective. We
interviewed FCC personnel responsible for Internet and web security, including the
Computer Security Office (CSO), Information Technology Center (ITC) and Auctions
systems personnel, and Bureau and Office personnel responsible for application
development. We sent questionnaires and e-mails to the CSO, and selected Bureau and
Office personnel. We also reviewed FCC system documentation.

In addition, we performed a number of tests to determine the level of security of the
FCC’s web presence. To determine what Internet system services the FCC web hosts
offered, TWM examined the ITC and Auctions systems using nmap, a commonly used
network scanning tool by auditors and computer security professionals. TWM used a
proprietary program to perform sophisticated analyses of the FCC’s Unix and Windows
NT web presence hosts. Finally, we used system penetration techniques to test the
security of the Commission’s web-based applications.

AUDIT SCOPE

This audit was conducted in accordance with Generally Accepted Government Auditing
Standards (GAGAS) and included such analyses, interviews, and testing as required to
support the audit findings.

The scope of this audit encompassed that portion of the Information Technology (IT)
infrastructure we defined as the FCC’s web presence. The web presence is the
architecture that includes all hardware, software, and network infrastructure that
comprises the Commission’s Internet entry and egress points.



                                            4
The hardware that we reviewed all contributed in providing security to the FCC’s web
presence. Appendix A, FCC Web Presence Architecture, High Level Overview, provides
a high level illustration of the FCC’s web presence infrastructure. Our review included
those network devices illustrated in Appendix A, such as firewalls, routers, hosts, and
switches. Finally, our review encompassed both the Auctions and ITC infrastructure.

The hosts we reviewed were primarily located in the Demilitarized Zones (DMZ) of the
ITC and Auctions systems. The DMZ refers to a complex multiple machine firewall
setup, where a computer is placed outside the firewall, but is still available for use by the
internal (protected) network. The advantage of a DMZ computer is it can use and receive
information from the entire Internet. The disadvantage is that the DMZ may be
vulnerable to attack from parties unknown. 1 As Appendix A illustrates, the ITC modified
their DMZ by placing the DMZ hosts between an outer and an inner firewall.

Our audit of the web presence infrastructure also included a review of operating system
controls of the DMZ hosts. This review was performed to determine if any
vulnerabilities existed that could allow intruders unauthorized access through the web
presence architecture and included penetration testing. We also reviewed selected
application program controls in FCC electronic filing (e-filing) systems that allow users
electronic access to Commission data and information. The controls we reviewed
included password standards and the use of encryption in e-filing systems. These e-filing
systems include applications for license or tariff filing or renewal, fee payment and
Auctions bidding procedures.

The scope of our audit was limited to the FCC’s web presence. No database systems or
servers were reviewed. No controls over Intranet sites were reviewed.

We performed a limited review of application controls on e-filing systems. This
encompassed a review of userIDs and passwords and the use of encryption to transmit
data over the Internet. We reviewed backup and contingency planning procedures of e-
filing applications. We did not review enterprise backup and contingency planning
procedures.

The audit was conducted at the Commission headquarters facility located at 445 12th
Street, Southwest, Washington, DC. Fieldwork on this audit was conducted from
February 25, 2000 through January 30, 2001.

AUDIT APPROACH

The Technical approach was based on the audit methodology found in the General
Accounting Office (GAO) Federal Information Systems Control and Audit Manual
(FISCAM), dated, January, 1999. This manual covers the essential requirements for
evaluating the Commission’s information systems general controls procedures. We also
used contractor proprietary procedures to augment the FISCAM.
 1
     DSL Reports, Knowledge Base, URL:http://www.dslreports.com/information/kb/DMZ. (March 6, 2001).



                                                      5
Our evaluation focused on two (2) of the six (6) FISCAM general controls categories as
they applied to web presence activities:

• Access controls limit or detect access to computer resources (data, equipment, and
facilities), thereby protecting these resources against unauthorized modification, loss, and
disclosure 2 .

• System software controls limit and monitor access to the powerful programs and
sensitive files that control the computer hardware and secure applications supported by
the system3 .

We also incorporated selected portions of the FISCAM sections addressing service
continuity and application software development. Service continuity controls ensure that,
when unexpected events occur, critical operations continue without interruption, or are
promptly resumed and critical and sensitive data are protected. We performed a limited
review of service continuity controls as the related to selected e-filing applications.

Application software development and change controls prevent unauthorized
programming or program modifications. An assessment of the coding of Application
Controls was beyond the scope of this review. The extent of the application controls
review was limited to information obtained by interview and by assessing common
techniques used to protect data during transmission and while obtaining access.

Under our approval and supervision, TWM used proprietary tools and audit procedures to
perform complex technical analyses. This combined approach also addressed many of
the general controls contained in OMB Circular No. A-130, Appendix III.

The audit team consisted of the following members:

          Thomas Bennett              FCC, Office of Inspector General
          Walter Opaska               FCC, Office of Inspector General
          Ian M.Harper                TWM Associates, Inc.
          Dave Elliott                TWM Associates Inc.
          Jeff Sullivan               TWM Associates, Inc.

The audit included the following three phases:

          Internal Controls Phase--to develop an understanding of the organizations,
          operations, and activities related to the program and system, and identify the
          potential risks to determine the extent of detailed analyses and testing necessary;



 2
     United States General Accounting Office, Federal Information Systems Control and Audit Manual, Volume 1,
      January, 1999, p.3-1.
 3
     Ibid ., p.3-2.



                                                        6
       Testing Phase--to accomplish the detailed analyses and testing steps necessary to
       complete the audit; and

       Reporting Phase--to formally report the results of the audit, including conditions,
       causes, effects, criteria, conclusions (when warranted) and recommendations.

Step One: Internal Controls Phase

Objective: The objective of this step was to identify previous audits, existing design,
implementation, and operational documents that describe the business processes,
organizations, and security policies associated with the FCC Web Presence.

During this phase, the audit team focused on gathering information on FCC policies,
previous OIG or other regulatory audit reports and reviews, and design, implementation
and operational audit documents for the FCC Web Presence. As part of this effort the
Web Presence OIG Audit team requested information on various aspects of the function
and composition of systems providing Web-based resources.

Step Two: Testing Phase

Objective: The objective of this step was to verify the security posture of the FCC
systems providing information via the World Wide Web and to identify security
weaknesses in the general controls and application development techniques in the areas
of access controls, network security, and system software.

In Phase 2, Testing, The audit team: (1) assessed the current security posture of the
Commission-wide systems providing information via the Web; (2) identified
vulnerabilities in the General Controls; and (3) reviewed application development
techniques to ensure that the FCC is not vulnerable to known Web-based attacks.

Step Three: Reporting Phase

Objective: The objectives of this step were to report observations in control weaknesses
associated with the FCC Web Presence within the context of periodic status reports and
final audit test report. This report is the manifestation of this step.

In Phase 3, Reporting, the audit team prepared status reports, presentations, and meeting
notes. These documents reflected the current state of the FCC Web Presence audit effort.
This step included the production of the draft reports and final Audit Report. The final
report contains all observations, recommendations, and findings.

BACKGROUND

Federal agencies are required by law to protect information resources and assets under
their control. Public laws, Office of Management and Budget (OMB) circulars and
memorandums, Presidential Decision Directives (PDDs), and National Institute of



                                             7
Standards and Technology (NIST) publications, enumerate the federal information
security framework for agencies, such as the FCC. Also, the Commission has its own
guidelines that are incorporated into an FCC directive on information security.

A number of public laws deal with information security. For example, the Computer
Fraud and Abuse Act of 1986 (PL 99-474) prohibits unauthorized or fraudulent access to
government computers and establishes penalties for such access. Other laws of general
application that apply to the protection of information resources include the Computer
Security Act of 1987, the Paperwork Reduction Act of 1995, the Clinger-Cohen Act of
1996, and the Government Information Security Reform Act.

OMB circulars and memorandums provide direction as to how federal agencies are to
implement these privacy laws. Appendix III of OMB Circular A-130 discusses the
security of Federal Automated Information Resources. Appendix III “establishes a
minimum set of controls to be included in Federal automated information security
programs; assigns Federal agency responsibilities for the security of automated
information; and links agency automated information security programs and agency
management control systems 4 .” Other OMB circulars and memorandums that apply to
information security include Circular A-123, Management Accountability and Control,
Memorandum M-99-18, Privacy Policies on Federal Web Sites, and Memorandum M-00-
13, Privacy Policies and Data Collection on Federal Web Sites. These OMB documents
add details that assist departments and agencies in implementing the laws related to
privacy in the Internet environment.

Presidential Decision Directives specify agency responsibilities in specific areas. PDD
63, Protecting America’s Critical Infrastructures, specifies agency responsibilities for
protecting the nation’s infrastructure 5 . Another, PDD 67 Enduring Constitutional
Government and Continuity of Government, has sections that relate to continuity of
operations planning 6 .

NIST publications provide clarification of federal security principles. NIST Special
Publication 800-12, Computer Security, provides assistance in securing computer-based
resources by explaining important concepts, cost considerations, and the
interrelationships of security controls 7 . Other relevant NIST publications include NIST
Special Publications 800-4, Computer Security Considerations in Federal Procurements,
800-14, Security Considerations in Computer Support and Operations Standardized Log-
on Banner, and 800-18, Guide for Developing Security Plans for Information Processing
Systems. Many of the Federal Information Publishing Standards (FIPS) series published
by NIST are also useful. For example, FIPS Publication 112, Password Usage, defines


 4
     Office of Management and Budget Circular No. A-130, Management of Federal Information Resources, February
      8, 1996. URL: http://www.whitehouse.gov/omb/circulars/a130/a130.html. (March 13, 2001)
 5
     CIO Council, Federal Information Security Assessment Network, November 28, 2000.
      http://cio.gov/docs/federal_it_security_assessment_framework.htm. (February 2, 2001).
 6
     Ibid.
 7
     Introduction to Computer Security: The NIST Handbook, URL: http://www.claitors.com/prf/catelog/003-003-
      03374-0.html. (March 13, 2001).



                                                       8
the security metrics for passwords and specifies minimum security criteria for access
control systems based on passwords 8 .

We relied on the FCC Security Directives as a primary security authority. FCC Directive
1479.1, Computer Security Program Directive , establishes policy and assigns
responsibilities for assuring that there are adequate levels of protection for all FCC
computer systems and information created, stored, or processed, therein9 . This
comprehensive computer security document was used as one of our key criteria when
performing this review.

OBSERVATIONS

Our review found that the FCC had an active and generally effective program for
managing the security of the Commission’s Web Presence. During our audit, we found
that the Commission has implemented numerous computer security controls designed to
protect and preserve its web-based assets.

Although the Commission has implemented numerous controls, we identified thirty-eight
(38) findings that impact the effectiveness of the Commission’s program. These findings
occurred in the areas of host and network access, system software, service continuity, and
application software development controls. We recommend that the problems we
identified be corrected to strengthen the security of the Commission’s web presence. Our
recommendations will correct present problems and minimize the risk that future security
problems will occur in the FCC’s Internet web presence.

Appendix B, Detailed Finding and Observations, lists the observations and
recommendations from the review of the FCC Web Presence. Because of the sensitivity
of the observations, we classified have Appendix B as privileged and confidential, for
internal FCC use only and will release that appendix only to those FCC personnel with a
need for the information.

RESPONSE

The two entities primarily responsible for the security of the FCC’s Web Presence, the
Wireless Telecommunications Bureau (WTB) and the Information Technology Center
(ITC), prepared separate responses to the draft report and its thirty-eight (38) findings. In
the WTB response, the Chief, WTB, concurred with the with the recommendations for
the twenty (20) findings that applied to the bureau. Of these twenty (20) findings, WTB
reported that fifteen (15) were closed as of May 7, 2001. We have included a copy of the
response from WTB in its entirety as Appendix C to this report.


 8
     FIPS Listed by Number, August 11, 2000. URL: http://www.itl.nist.gov/fipspubs/by-num.htm. (March 14,
      2001).
 9
     FCC Instruction 1479.1, Computer Security Program Directive, November 30, 1995, URL:
      http://intranet.fcc.gov/omd2/docs/directives/fccinst1479_1.html. (March 14, 2001).




                                                       9
In the ITC response to the draft report, the Chief Information Officer (CIO) concurred or
concurred with comments to twenty-eight (28) of the thirty-one (31) findings that applied
to ITC. The ITC disagreed with the recommendations of three (3) findings. Also, ITC
requested that we reclassify the severity of a third finding, while concurring with its
recommendation. In response, we have added our comments to the end of these four (4)
findings. We have included a copy of the response from ITC in its entirety as Appendix
D to this report. Where ITC disagreed with our conclusions, we have added a section
titled “OIG Comments,” where we explain our position.

ITC also stated that the concurrence and completion dates associated with each of the
respective IG recommendations is conditional prior to the completion of a cost, staffing
and impact analysis for each of the action items provided in your report. The cost
analysis is being formulated and will be shared with the IG office once approved by the
CIO. As of the date of the issuance of this report, the OIG has not received this cost,
staffing, and impact analysis.




                                            10
